March 26, 2009

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT:         Audit Report – Vehicle Management – National Trailer Lease Renewal –
                 Great Lakes Area (Report Number NL-AR-09-004)

This report presents a portion of the results from our nationwide audit of the National
Trailer Lease renewal.1 The objectives of our self-initiated audit were to determine
whether the renewal was effective and economical2 (Project Number 08XG037NL000).
This report focuses on trailer lease requirements in the Great Lakes Area. See
Appendix A for additional information about this audit.

Conclusion

The National Trailer Lease renewal was not as effective and economical as it could
have been because the Great Lakes Area did not have a comprehensive management
plan in place to accurately identify its trailer requirements, ensure proper trailer use, and
adjust trailer inventory based on continued need.

As a result, the U.S. Postal Service incurred about $329,863 in unnecessary lease costs
over a 6-month period. We estimate the Postal Service could save about $5.4 million in
lease costs over the next 10 years, if the Great Lakes Area improves its processes for
trailer fleet management and returns unneeded trailers. See Appendix B for our
detailed analysis of this topic. See Appendix C for our monetary impact calculation.

We recommend the Vice President, Great Lakes Area Operations:

1. Develop a comprehensive process to identify trailer requirements and manage trailer
   inventory and use.

2. Analyze the number of trailers needed to transport mail and equipment and return
   unneeded trailers to Postal Service Headquarters for reallocation or return to the
   leasing contractor, saving the Postal Service about $5.4 million over the next
   10 years.


1
  On July 1, 2006, the Postal Service executed a renegotiated 6-year lease renewal of the September 2000 National
Trailer Lease with Transportation International Pool (TIP), Inc., a wholly owned trailer and equipment-leasing
subsidiary of General Electric Company.
2
  We slightly modified the audit objectives in the original announcement letter. Our initial objectives were to
determine whether the trailer procurement was effective and to identify opportunities to save money.



                                                        1
Vehicle Management – National Trailer Lease Renewal –                         NL-AR-09-004
 Great Lakes Area


3. Analyze storage requirements and procure storage space in the most cost-effective
   manner.

Management’s Comments

Management agreed with our findings and recommendations, but did not agree with our
long term calculated monetary savings. They are improving procedures for trailer
inventory management and plan to have the new procedures by April 11, 2009. Also,
management conducted a review of their trailer requirements and returned 180 trailers
to the leasing supplier effective February 12, 2009. The Great Lakes Area is in the
process of gathering the documentation to support the trailer returns and will forward
these documents the U.S. Postal Service Office of Inspector General (OIG) when they
are complete. In addition, the Great Lakes Area will analyze storage requirements and
will seek cost-effective storage at all the Great Lakes Area facilities. Management
agreed to continually monitor the storage trailer requirements and will adjust the volume
as needed. Management’s comments, in their entirety, are included in Appendix D.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. Although
management did not agree with our 10-year projected savings, they did not provide
support for an alternate amount.

We will report a total of $5,746,726 in monetary impact in our Semiannual Report to
Congress, including $329,863 in questioned costs and $5,746,726 in funds put to better
use.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. We appreciate the prompt action already taken and
will continue working with management to obtain support for those actions in the
process of closing the recommendations. These recommendations should not be
closed in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that they can be closed.




                                                   2
Vehicle Management – National Trailer Lease Renewal –                      NL-AR-09-004
 Great Lakes Area



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, Director,
Transportation, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Susan Brownell
    Anthony M. Pajunas
    Cynthia F. Mallonee
    Katherine S. Banks




                                                   3
Vehicle Management – National Trailer Lease Renewal –                                          NL-AR-09-004
 Great Lakes Area


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

During fiscal year (FY) 2000, the Postal Service began a major, multi-phased corporate
initiative to terminate local trailer contracts, centralize trailer acquisition at Postal
Service Headquarters, and commit to a single national contractor.

Initial National Trailer Lease – In September 2000, the Postal Service signed a National
Trailer Lease contract for 4,475 trailers with TIP, Inc., a wholly owned trailer and
equipment-leasing subsidiary of General Electric Company.




           The Postal Service uses a unique numbering system for TIP “National Trailer Lease”
            trailers it assigns to facilities. We photographed these trailers, beginning with the
            numbering sequence “63Z”, at the St. Louis Bulk Mail Center (BMC) on August 20,
                                                     2008.


The anticipated cost of the 12-year contract plus the renewal option was more than
$201 million. The new centralized national contract would:

   •   Reduce the average cost to lease a trailer from xxxxxxxxxxxxxxxx per day.

   •   Potentially save the Postal Service more than $2.2 million annually.

   •   Provide the flexibility to maintain trailer inventory only when and where trailers
       are needed because unneeded trailers could be returned to the leasing
       contractor.

National Trailer Lease Renewal – On July 1, 2006, the Postal Service executed a
renegotiated 6-year lease renewal.




                                                     4
Vehicle Management – National Trailer Lease Renewal –                            NL-AR-09-004
 Great Lakes Area


The new agreement reduced the lease cost to xxxxxx per trailer per day and was
intended to:

   •   Improve inventory controls by requiring the leasing contractor to install satellite
       tracking devices on all trailers by November 1, 2006.

   •   Save money by allowing the Postal Service to return unneeded trailers.

Under the National Trailer Lease, Postal Service officials allocated 1,687 trailers to the
Great Lakes Area, which subsequently assigned 400 trailers to the Chicago BMC,
323 to the Detroit BMC, and 225 to the St. Louis BMC. The Postal Service allocated the
remaining trailers among 12 other Great Lakes Area facilities.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our nationwide audit were to determine whether the National Trailer
Lease renewal was effective and economical. Although this is a nationwide audit, we
used a regional approach because individual Postal Service areas control the National
Trailer Lease fleet. This report is the eighth in a series of reports and focuses on the
Great Lakes Area.

During our work, we interviewed Postal Service officials at headquarters and in the
Great Lakes Area and visited the Chicago, Detroit, and St. Louis BMCs and other
facilities in the Great Lakes Area. We observed and photographed operations,
inspected trailers, interviewed supervisors and employees, and examined Postal
Service policies and procedures. We used computer-assisted analysis techniques to
examine computer data in management’s Transportation Information Management
Evaluation System for the period October 9, 2007, through April 8, 2008.

In addition, we collected and examined yard management reports and information on
trailers that were out of service for repairs. We did not audit or comprehensively
validate the data; however, several control weaknesses constrained our work. For
example, some computer records had missing or inaccurate data. Although data and
other limitations constrained our work, we compensated by applying alternate audit
procedures such as examination of source documents, observation, physical inspection,
and discussions with appropriate officials.

We examined the National Trailer Lease and other relevant Postal Service documents
and records. We discussed our conclusions and observations with management
throughout our audit and included their comments where appropriate.

We conducted work associated with this performance audit report from July 2008
through March 2009 in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform audit work to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and


                                                   5
Vehicle Management – National Trailer Lease Renewal –                                  NL-AR-09-004
 Great Lakes Area


conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. We
discussed our observations and conclusions with management officials on February 12,
2009, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG has worked with the Postal Service to improve vehicle management and
reduce vehicle costs. As indicated by the chart below, since April 2005, we have issued
seven audit reports that identified potential trailer lease savings exceeding $21 million.
The reports addressed vehicle management weaknesses similar to those identified in
this report.

                                                                                      Monetary
                                                 Report         Final Report           Impact
               Report Title                      Number             Date            (in millions)
Vehicle Management – National Trailer Lease –
                                                NL-MA-05-001     April 21, 2005     Not applicable
Unresolved Audit Recommendations

Vehicle Management – National Trailer Lease –
                                                NL-ID-06-002
A.T. Kearney, Inc. Analysis                                     February 7, 2006    Not applicable

Vehicle Management – National Trailer Lease
                                                NL-AR-06-013
Requirements – Capital Metro Area                              September 29, 2006       $1.9


Vehicle Management – National Trailer Lease     NL-AR-07-005
                                                                 June 15, 2007
Renewal – Southwest Area                                                                $4.8


Vehicle Management – National Trailer Lease     NL-AR-07-009   September 28, 2007       $7.5
Renewal – Pacific Area


Vehicle Management – National Trailer Lease     NL-AR-08-005    August 27, 2008         $4.1
Renewal – Eastern Area


Vehicle Management – National Trailer Lease     NL-AR-08-007   September 25, 2008       $2.2
Renewal – Southeast Area




                                                    6
Vehicle Management – National Trailer Lease Renewal –                                                                       NL-AR-09-004
 Great Lakes Area


                                                          APPENDIX B: DETAILED ANALYSIS

National Trailer Lease Fleet Management – Great Lakes Area

We concluded the National Trailer Lease renewal was not as effective and economical
as it could have been because the Great Lakes Area BMCs had more trailers than
needed. Of the 1,687 trailers leased in the Great Lakes Area, management assigned
948 to the BMCs and allocated the remaining 736 trailers to nine other facilities in the
Great Lakes Area. Our analysis did not reveal material underutilization of trailers at the
nine other facilities.

However, in analyzing the use of BMC trailers, we identified the maximum number of
trailers used at each of the three BMCs3 during the period October 2007 through early
April 2008 and found the Postal Service used:

      •    300 of the 400 trailers (75 percent) leased at the Chicago BMC to move mail.
      •    283 of the 323 trailers (88 percent) leased at the Detroit BMC to move mail.
      •    186 of the 225 trailers (83 percent) leased at the St. Louis BMC to move mail.

                                                       Great Lakes Area Bulk Mail Center TIP Trailer Highest 
                                                           Day Utilization from 10/9/2007 ‐ 4/8/2008
                                                 400
                                                                100 
                     Number of Leased Trailers




                                                 300                                    40 


                                                 200                                                         39 

                                                                300                     283
                                                 100                                                        186


                                                  0
                                                           Chicago BMC          Detroit BMC            St Louis BMC      
                                                           (400 leased)         (323 leased)           (225 leased)
                                                          Number of Trailers Used on Highest Utilization Day
                                                          Number of Trailers Not Used on Highest Utilization Day


We concluded the Postal Service did not need the remaining 179 trailers – or more than
10 percent of the 1,687 trailers currently allocated to the Great Lakes Area – to move
mail. We estimate that the Postal Service incurred about $329,863 to lease the
unneeded trailers over a 6-month period, and that it could save about $5.4 million by
improving its processes for trailer fleet management and taking advantage of the lease
3
    These numbers represent the highest day of utilization during the approximate 6-month period analyzed.



                                                                                    7
Vehicle Management – National Trailer Lease Renewal –                                                  NL-AR-09-004
 Great Lakes Area


provisions that allow it to return unneeded trailers. See Appendix C for detailed
calculations.

The Postal Service’s general investment policy states that requirements must be
documented in detail so that approving officials can make informed procurement
decisions. Further, in justifying the need for the National Trailer Lease Renewal
contract, management stated the centralized national contract would provide the
flexibility to maintain trailer inventory only when and where trailers were needed
because unneeded trailers could be returned to the leasing contractor.

The Great Lakes Area had excess trailers because it did not have a comprehensive
process for identifying trailer requirements and ensuring their proper use. Local
managers identified control weaknesses and stated that Great Lakes Area BMCs and
other local facilities used trailers to store excess equipment due to the lack of storage
space.




                                      Stored equipment at the St. Louis Pine
                                           Street Lot, August 20, 2008.



We also determined that, although the National Trailer Lease was intended to provide
trailers to meet transportation requirements, the Great Lakes Area had too many
roadworthy4 national lease trailers being improperly used for storage. For example, the
Detroit BMC used about 50 trailers – or almost 15 percent of its leased fleet – for this
purpose.




5
 Roadworthy trailers are trailers that meet or exceed Postal Service safety standards for use in transporting mail and
pose no safety threat to the public.



                                                          8
Vehicle Management – National Trailer Lease Renewal –                           NL-AR-09-004
 Great Lakes Area


A Postal Service Headquarters policy letter dated August 11, 2004, requires that
management analyze and validate trailer storage requirements. The letter also
stipulates that it is Postal Service policy to fill storage requirements with non-roadworthy
trailers at lower rates. The Postal Service was improperly using trailers for storage
because the Great Lakes Area did not have a comprehensive process to identify trailer
storage requirements. The practice of storing equipment in trailers leased for
transportation was unneeded and costly.




                                                   9
  Vehicle Management – National Trailer Lease Renewal –                                                                          NL-AR-09-004
   Great Lakes Area


                                                             APPENDIX C: ESTIMATED SAVINGS

                                                           Unneeded Trailers – Questioned Costs5

                                                                                        Chicago              Detroit         St. Louis
                                                                                         BMC                  BMC              BMC          Total

                      Leased Trailer Count                                                     400              323            225              948
                      Less: Number of Trailers Utilized on Highest Day                         300              283            186              769
                      Number of Trailers that should have been
                      returned to the vendor during 6-month period                             100              40              39              179

                      Daily lease rate of xxxxxx xxx xxx x xxx xxxxxxxx x xxx xxxx* = $329,863
                      Total Missed Opportunity =                                   $329,863
                              * Day count from October 2007 – April 2008 = xxx days

                                                                      Funds Put to Better Use6

Project Year           0           1            2             3             4              5            6              7         8          9           10

Fiscal Year          2009        2010          2011         2012          2013         2014           2015            2016     2017       2018         2019        Total

Lease
                  ($54,827)    $657,923     $657,923      $657,923     $657,923      $657,923        $657,923    $657,923    $657,923    $657,923     $657,923   $6,524,408
Amount

Discounted
                  ($54,827)    $635,675     $614,179      $593,409     $573,342      $553,954        $535,221    $517,122    $499,635    $482,739     $466,414   $5,416,863
Amount

Total Expenditure             $6,524,408

Net Present Value             $5,416,863

  Indemnity at 1/12 of annual rate = $54,827 (Deducted from current year savings only)
  Discount rate @ 3.5 percent
  Note: The analysis above does not include any additional costs that may be incurred to find alternatives for storage of mail equipment.

  5
      Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation.
  6
      Funds that could be used more efficiently by implementing recommended actions.

                                                                                      10
Vehicle Management – National Trailer Lease Renewal –      NL-AR-09-004
 Great Lakes Area

                       APPENDIX D: MANAGEMENT’S COMMENTS




                                                  11
Vehicle Management – National Trailer Lease Renewal –   NL-AR-09-004
 Great Lakes Area




                                                  12
